COMMODITY FUTURES TRADING COMMISSION

   SEMIANNUAL REPORT
        OF THE


  OFFICE OF THE
INSPECTOR GENERAL




    FOR THE PERIOD ENDING SEPTEMBER 30, 2010
                           u.s. COMMODITY FUTURES TRADING                 COMMISSION
                                                 Three Lafayette Centre
                                      115521 st Street, NW, Washington, DC 20581
                                              Telephone: (202) 418-5110
                                               Facsimile: (202) 418-5522
                                                      www.cftc.gov


   Office of the
Inspector General




                                                    November 1, 2010


      TO:            The Commission

      FROM:          A. Roy Lavik   Q Q£-
                     Inspector General

      SUBJECT:       Semiannual Report of the Office of the Inspector General


             Attached is the Office of the Inspector General's Semiannual Report (SAR) for the period
      from April 1,2010 through September 30, 2010. This report is submitted to you in accordance
      with the requirements of Section 5 of the Inspector General Act of 1978, as amended. 5 USC
      App. 3 sec. 5.

              The Dodd-Frank Act altered the relationship of the designated Federal entity Offices of
      Inspector General with the agency head by establishing that "head" of a designated Federal entity
      means "the board or commission of the designated Federal entity." P.L. 111-203, Title IX,
      Subtitle I, sec. 989B, 124 Stat. 1945 (codified at 5 USC App. 3 sec. 8G(a)(4)). In accordance
      with the Dodd-Frank Act, instead of reporting to the Chairman as we have in the past, we submit
      this report to the Chairman and to each Commissioner.

               Under section 5(b) of the IG Act, the SAR shall be transmitted to the appropriate
      committees or subcommittees of the Congress within thirty days after receipt of the Semiannual
      report, together with a report by the head of the establishment conforming to the requirements of
      section 5(b) of the IG Act.

              I appreciate your continuing support of this office.
Recipients:

Gary Gensler                         Bart Chilton
Chairman                             Commissioner

Michael Dunn                         Scott D. D'Malia
Commissioner                         Commissioner

Jill E. Sommers
Commissioner

Attachment:

Semiannual Report for the CFTC DIG
                  OFFICE OF THE INSPECTOR GENERAL
               COMMODITY FUTURES TRADING COMMISSION
                                       SEMIANNUAL REPORT
                                      FOR THE PERIOD FROM
                               April 1, 2010 through September 30,2010



                                 EXECUTIVE SUMMARY
            This semiannual report is issued by the Office of the Inspector General (OIG) for the
    Commodity Futures Trading Commission (CFTC) pursuant to the Inspector General Act of
    1978, as amended. It summarizes OIG's activities and accomplishments for the period April 1,
    2010, through September 30, 2010. During this period, OIG completed one inspection,
    completed one review, completed a procurement, and began work on the Fiscal Year (FY) 2010
    financial statement audit and related tasks. OIG reviewed proposed enforcement actions and
    rules proposed by CFTC and by regulated entities, participated in training, monitored peer
    review activities, visited CFTC field offices, and participated in Government-wide OIG
    professional and cooperative meetings and training. One preliminary investigation was opened
    and closed during the reporting period. No investigations were pending at the close of this
    reporting period. No significant problems, abuses or deficiencies regarding CFTC programs and
    operations were identified during the reporting period.

            Highlights ofOIG's completed and ongoing audit, inspection, review, investigative and
    other projects include:

•   OIG completed an Inspection of CFTC's Disposal of Surplus Information Technology Equipment. The
    inspection documented CFTC's disposal of surplus information technology equipment for FY 2009,
    with one recommendation for improvement.
•   OIG completed review #09-02, "The Effect ofCT Pay on Recruitment and Retention." The review
    examined whether additional pay and benefits given to CFTC employees results in enhanced recruitment
    and retention. The review focused on new hires starting at CFTC between 2007 and 2009. While CT
    pay does assist recruitment and retention, other factors effecting recruitment and retention decisions
    were identified and negative factors were also uncovered.
•   OIG completed a procurement to secure an external auditor to perform the annual CFTC financial
    statement audit. Allegations concerning possible misconduct relating to an earlier procurement to obtain
    an external auditor (that CFTC OIG referred to the Council of Inspectors General on Integrity and
    Efficiency - Integrity Committee in March 2009) were resolved with a finding of no misconduct by the
    CFTC OIG.
•   OIG began its work related to the FY 2010 financial statement audit. OIG also began its work for FY
    2010 related to the Federal Managers' Financial Integrity Act (FMFIA) and to the Federal Information
    Security Management Act (FISMA).
•   OIG received an allegation of activities by a former CFTC employee in possible violation of 18 USC
    207(a). OIG examined the allegation and determined not to make any referrals to the Department of
    Justice due to statute of limitations issues.
            OFFICE OF THE INSPECTOR GENERAL
         COMMODITY FUTURES TRADING COMMISSION
                                 SEMIANNUAL REPORT
                                FOR THE PERIOD FROM
                         April 1, 2010 through September 30,2010



                            TABLE OF CONTENTS'

EXECUTIVE SUMMARY                                                                    i
INDEX OF IG ACT REPORTING REQUIREMENTS                                              iv
INTRODUCTION                                                                        1
 CFTC Programs and Operations                                                       1
 OIG Responsibilities                                                               1
 OIG Resources                                                                      3
COMPLETED AUDITS, INSPECTIONS, EVALUATIONS, REVIEWS and OTHER
PROJECTS                                                                            3
 Inspection of CFTC's Disposal of Surplus Information Technology Equipment          3
 Review of the Effect of the CFTC Pay System on Recruitment and Retention           4
CURRENT AUDITS, INSPECTIONS, EVALUATIONS, REVIEWS and OTHER PROJECTS 5
 Current Audits                                                                     5
   Audit of CFTC Financial Statements for Fiscal Year 2010                          5
 Current Inspections, Evaluations, Reviews and Other Projects                       6
   Review of Compliance with the Federal Managers' Financial Integrity Act, FMFIA   6
   Evaluation of the Federal Information Security Management Act at CFTC            6
   Review of CFTC's Documentation of Market Surveillance Communications             7
AUDIT REPORTS and REVIEWS OVER SIX MONTHS OLD                                       7
 Corrective Action not Completed                                                    7
 Corrective Action Completed                                                        7
 Management Decision not Made                                                       7
INVESTIGATIONS                                                                       8
SUMMARY OF MATTERS REFERRED TO PROSECUTORIAL AUTHORITIES                             8
CONGRESSIONAL INQUIRIES                                                             9
LEGISLATIVE, REGULATORY AND RULE REVIEWS                                            9
 Introduction and Summary                                                            9
 Rule Reviews Initiated in Previous Reporting Periods                                9
 Rule Reviews Initiated this Reporting Period                                        9
 Legislative Activities                                                             10
OTHER REVIEWS                                                                       10

                                             ii
  Peer Reviews                                                   10
  Other Reviews and Activities                                   10
SUMMARY OF EACH REPORT MADE TO THE AGENCY HEAD CONCERNING
REQUESTS FOR INFORMATION OR ASSISTANCE                           11
REVISED MANAGEMENT DECISIONS                                     11
INSPECTOR GENERAL DISAGREEMENT                                   11
GAO LIAISON                                                      11
STRATEGIC PLAN FOR THE OFFICE OF THE INSPECTOR GENERAL           11
  Investigative Agenda                                           11
  Legislative and Regulatory Review Agenda                       12
  Audit, Inspection, Evaluation and Review Agenda                13
    Introduction                                                 13
    Annual Audit                                                 13
  Annual Review and Evaluation                                   14
  Other Audits, Inspections, Evaluations, Reviews and Projects   14
  Resources Required                                             15
CONTACTING THE OFFICE OF THE INSPECTOR GENERAL                   15
Table 1 - Reports Issued with Questioned Costs                   16
Table 2 - Reports Issued with Recommendations                    17




                                              111
                    INDEX OF IG ACT REPORTING
                          REQUIREMENTS

Section 4(a)(2)        Review of legislation and regulations                          9

Section 5(a)(I)        Significant problems, abuses and deficiencies                 .i

Section 5(a)(2)        Recommendations with respect to significant problems           .i

Section 5(a)(3)        Significant recommendations that have not been completed       7

Section 5(a)(4)        Matters referred to prosecutorial authorities                  8

Section 5(a)(5)        Summary of instances where information was refused            ll

Section 5(a)(6)       Completed audit, inspection and evaluation reports              3

Section 5(a)(7)       Significant reports                                            3

Section 5(a)(8)       Statistical Table-Questioned Costs                             16

Section 5(a)(9)       Statistical Table-Funds Recommended for Better Use             17

Section 5(a)(1 0)     Audit, inspection and evaluation reports lacking
                      management decision                                            7

Section 5(a)(11)      Significant revised management decisions                       11

Section 5(a)(I2)     Significant management decisions where the IG disagrees         11

Section 5(a)(13)     .Information described under the Federal Financial Management
                      Improvement Act of 1996                                        6

Section 6(b)(2)       Summary of reports to Chairman where assistance was refused    11




                                            IV
               OFFICE OF THE INSPECTOR GENERAL
            COMMODITY FUTURES TRADING COMMISSION
                                   SEMIANNUAL REPORT
                                   FOR THE PERIOD FROM
                               April 1, 2010 - September 30, 2010

                                    INTRODUCTION
1.      CFTC Programs and Operations

       Congress created the Commodity Futures Trading Commission in 1974 as an
independent agency with the mandate to regulate commodity futures and options markets in the
United States. The Commission's mandate was renewed and/or expanded in 1978, 1982, 1986,
1992 and 1995. In December 2000, the Commission was reauthorized by Congress and the
President through Fiscal Year 2005 with the passage of the Commodity Futures Modernization
Act of2000 (CFMA). In May of2008, Congress reauthorized the CFTC through Fiscal Year
2013. On July 21,2010, the President signed into law the Dodd-Frank Wall Street Reform and
Consumer Protection Act (Dodd-Frank Act), P.L. 111-203, which expanded CFTC's jurisdiction
and authorities.

        The CFTC is responsible for fostering the economic utility of futures markets by
encouraging their competitiveness and efficiency, ensuring their integrity and protecting market
participants against manipulation, abusive trade practices and fraud. Through effective oversight
regulation, the CFTC enables the commodity futures markets better to serve their vital function
in the nation's economy-providing a mechanism for price discovery and a means of offsetting
price risks. The new Dodd-Frank Act authorizes the CFTC to regulate swap dealers, increase
transparency and improve pricing in the derivatives marketplace, and lower risk to the American
public.

        The CFTC operating divisions are: Office of the Chairman, Office of the Executive
Director, Office of General Counsel, Division of Clearing and Intermediary Oversight, Division
of Enforcement, Division of Market Oversight and Office of the Chief Economist. In addition to
its headquarters office in Washington, DC, the CFTC maintains offices in Chicago, Illinois;
Kansas City, Missouri; and New York, New York.

2.      OIG Responsibilities

       The CFTC OIG was created in 1989 in accordance with the 1988 amendments to the
Inspector General Act of 1978 (P.L. 95-452). OIG was established as an independent unit to:

•    Promote economy, efficiency and effectiveness in the administration of CFTC programs and
     operations and detect and prevent fraud, waste and abuse in such programs and operations;

•    Conduct and supervise audits, inspections, evaluations, reviews, projects and, where
     necessary, investigations relating to the administration of CFTC programs and operations;
•   Review existing and proposed legislation, regulations and exchange rules and make
    recommendations concerning their impact on the economy and efficiency of CFTC programs
    and operations or the prevention and detection of fraud and abuse; and

•   Keep the Chairman and Congress fully informed about any problems or deficiencies in the
    administration of CFTC programs and operations and provide recommendations for
    correction of these problems or deficiencies.

        It is the duty and responsibility of the DIG to conduct, supervise and coordinate audits
relating to CFTC programs and operations in accordance with generally accepted government
auditing standards. OIG is also charged with the duty and responsibility to recommend changes
to existing and proposed CFTC programs and operations to promote economy, efficiency and
effectiveness and to prevent and detect fraud and abuse.

        The purpose of DIG audits, inspections, evaluations, reviews and projects generally is to
ensure that:

•   Funds have been expended in a manner consistent with related laws, regulations and policies;

•   Resources have been managed effectively and efficiently;

•   Stipulated program objectives have been achieved;

•   Agency operations have not been subject to improper influence or corruption; and

•   Resources have been safeguarded.

        OIG operates independently of the Agency and has not experienced any interference from
the CFTC Chairman in connection with the conduct of any investigation or audit, inspection,
evaluation, review or project, and our investigations have been pursued regardless of the rank or
party affiliation of the target. OIG has also conducted audits, inspections, evaluations, reviews
and other projects without interference where it has perceived the opportunity to recommend
improvement to futures regulation efforts, again without regard to the party affiliation of any
Chairman. l

        CFTC is a designated Federal entity (DFE) under the IG Act of 1978, as amended. 5
USC App. 3 sec. 8G(a)(2). The Dodd-Frank Wall Street Reform and Consumer Protection Act
altered the relationship between the DFE Inspectors General and the agency head by clarifying
that "head" ofa DFE means "the board or commission of the designated Federal entity." P.L.
111-203, Title IX, Subtitle I, sec. 989B, 124 Stat. 1945 (codified at 5 USC App. 3 sec. 8G(a)(4)).
The effective date of this provision was July 22, 2010. The DIG has not experienced any
interference from the head of the CFTC in the conduct of its official duties.


1 The Inspector General Act of 1978, as amended, states: "Neither the head of the establishment nor the officer next
in rank below such head shall prevent or prohibit the Inspector General from initiating, carrying out, or completing
any audit or investigation ...." 5 U.S.C. App. 3 sec. 3(a).
                                                         2
3.     OIG Resources

        DIG consists of the Inspector General, the Assistant Inspector General for Audits, an
Attorney-Advisor and a secretary. The Inspector General assumed his position on October 7,
1990. The Assistant Inspector General joined the office in 1999, and the Attorney-Advisor
joined in 2007.



     COMPLETED AUDITS, INSPECTIONS, EVALUATIONS,
            REVIEWS and OTHER PROJECTS
1.     Inspection of CFTC's Disposal of Surplus Information Technology Equipment

Objective

        In FY 2009 CFTC initiated a technology refresh of all Information Technology(lT)
equipment provided to employees. In repsonse to an allegation of misconduct relating to othe
disposal of surplus IT equipment, DIG conducted an inspection of the CFTC's Disposal of Surplus
Information Technology Equipment. DIG undertook actual verification of each unique asset
identified as surplus. In order to achieve this objective, DIG acquired a copy of the agency's
inventory of all IT equipment subject to replacement during the upgrade, obtained from GSA a
listing of all equipment received from CFTC, and then verified its disposal with the ultimate
recipient of each surplused item.



         We were able to account for 1184 items or 990/0 of CFTC's surplus Information Technology
assets for FY 2009. One regional office was able to supply documentary evidence that 88 out of 88
surplused Information Technology assets that contain a data storage device were wiped clean
("sanitized") prior to its shipment to General Services Administration. However for other Information
Technology assets containing a data storage device, located in three other offices, we found that the
CFTC had no available record to confirm that those surplus assets were sanitized by agency
employees as required by CFTC disposal policy.

       We recommended that CFTC confirm, document, and retain evidence that IT assets which
contain a data storage device are sanitized prior to shipment to GSA or any outside party.
Management agreed to implement the GIG recommendation.




                                                 3
2.     Review of the Effect of the CFTC Pay System on Recruitment and Retention

        This review evaluated the effect of the CFTC pay system on current recruitment and
retention. Section 10702 of Public Law 107-171, the Farm Security and Rural Investment Act of
2002 (FSRIA) authorized CFTC to create its own pay system (CT pay). Under CT Pay, CFTC
employees earn more than counterpart federal employees working at the same grade at federal
agencies operating under the GS scale, and enjoy enhanced benefits. CFTC has used the CT Pay
system since April 2003.



         During the reporting period, the GIG completed the field work for this review and issued
its report on September 28, 2010. The GIG completed interviews of 89 CFTC employees
working directly with futures regulation: lawyers, auditors, economists, investigators,
paralegals, and one trade practice analyst. We interviewed employees recently coming to CFTC
from self-regulatory organizations (SROs), securities and futures exchanges, investment banks,
accounting and law firms, and other private sector entities, as well as from other government
entities. The 89 employees shared their views on whether and to what extent CT Pay influenced
their decision to apply with CFTC, to accept a job offer, and to stay employed at CFTC. We also
discussed recruitment and retention in the post CT-pay environment with 10 supervisors
involved with recent efforts since 2007 in order to obtain their impressions of recruitment and
retention in the post CT-Pay environment.

        We concluded that CT pay has proven to be a valuable tool for recruitment, but may
prove to be a less valuable but still meaningful tool for retention. CT pay permits CFTC to offer
competitive or comparable starting salaries to new employees entering the CFTC from the public
sector, self-regulatory organizations, futures and stock exchanges, accounting firms and
academia (but may not be competitive at the highest levels in some organizations). CT pay
generally is not competitive with larger or more exclusive law firms, investment banks and
broker/dealers, especially with regard to higher level professional positions. In addition to CT
pay, CFTC's other benefits, including lifestyle benefits, are attractive to recent new hires and
influence both hiring and retention decisions. The recent economic downturn was a factor in
employment decisions for 1/3 of the interviewees, and we were struck by the fact that several
employees who stated they were not affected by the economic downturn told us they simply
wanted to work at CFTC, even with a substantial pay cut. Supervisors told us the economic
downturn increased both the quantity and quality of applicants for recent job listings.

        The recent new hires we interviewed were uniformly superior in their qualifications, and
while we cannot state with mathematical accuracy that CT pay results in a higher quality
applicant than GS pay would, all signs seemed to point in this direction. Negative influences on
retention expressed by new hires included a perceived lack of opportunity for advancement
within the workplace, and perceived inequities among starting salaries.




                                               4
        CURRENT AUDITS, INSPECTIONS, EVALUATIONS,
              REVIEWS and OTHER PROJECTS

1.     Current Audits

a. Audit of CFTC Financial Statements for Fiscal Year 2010

        In FY 2002, Congress passed the Accountability of Tax Dollars Act. The Act requires
the CFTC, along with numerous other Federal entities, to obtain an independent financial
statement audit each year. During the reporting period, the Inspector General selected an
independent public accountant (IPA) to render an opinion on the agency's financial statements
for Fiscal Year 2010 in accordance with generally accepted auditing standards, Government
Auditing Standards, OMB Bulletin 01-02 and OMB Circular A-136.

The specific objectives of this audit include determinations whether:

(1) The financial statements present fairly the financial position of the Commodity Futures
Trading Commission in accordance with generally accepted accounting principles as
promulgated by the Federal Accounting Standards Advisory Board. The five financial
statements, along with all corresponding notes to be audited include: (a) Balance Sheet; (b)
Statement of Net Cost; (c) Statement of Changes in Net Position; (d) Statement of Budgetary
Resources; and (e) Statement of Custodial Activity.

(2) Management's assertions about the effectiveness of its internal controls for achieving internal
control objectives described in Statement on Auditing Standards Section 319 and the Federal
Managers Financial Integrity Act (FMFIA) are fairly stated in all material respects. The IPA
makes this determination in part by obtaining an understanding of the internal control policies
and procedures and assessing the level of control risk relevant to all significant cycles, classes of
transactions, and account balances. For those significant control policies and procedures that
have been properly designed and placed in operation, the IPA performs sufficient tests to provide
reasonable assurance as to whether the controls are effective and working as designed.

The IPA limits its internal control testing to those controls necessary to achieve the objectives
described in OMB Bulletin 01-02. Further, the IPA is not required to test all internal controls
relevant to operating objectives as broadly defined by the FMFIA, such as those controls relevant
to achieving efficient operations.

With respect to internal controls related to performance measures reported in the accountability
report, the IPA obtains an understanding of the design of significant internal controls relating to
the existence and completeness assertions, as required by OMB Bulletin 01-02. The procedures
are not required to provide assurance on internal controls over reported performance measures.

(3) The agency has complied with selected provisions of laws and regulations identified by OMB
Bulletin 01-02 or the Inspector General, noncompliance with which could have a direct and

                                                 5
material effect on the determination of financial statement amounts. The IPA limits its tests of
compliance to these provisions and need not test compliance with all laws and regulations
applicable to the CFTC.



       In May 2010, the Inspector General selected an independent public accountant to conduct
the CFTC Financial Statement Audit. The Fiscal Year 2010 audit began in June with an entrance
conference with senior agency managers, the DIG and representatives from the IPA. Further
meetings and reviews have taken place throughout this reporting period while work on the audit
is ongoing. The final audit report is to be delivered to the Office of the Inspector General in
November 2010. 2

2.        Current Inspections, Evaluations, Reviews and Other Projects

a. Review of Compliance with the Federal Managers' Financial Integrity Act, FMFIA

        The Federal Managers' Financial Integrity Act of 1982 requires federal managers to
establish a continuous process for evaluating, improving, and reporting on the internal control
and accounting systems for which they are responsible. DMB Circular A-123, revised December
2004, "Management Accountability and Control," is the implementing guidance for FMFIA.
The annual FMFIA report will be included in the Performance and Accountability Report (PAR)
issued on November 15th under the heading "Management Assurances."

Status.

         The Office of the Inspector General is in the process of receiving and reviewing draft
internal control reviews produced by agency staff, and will provide comments to the originating
divisions. DIG will report its evaluation of the final FMFIA documents in its annual assurance
letters to the Chairman which will be included in the PAR.

b. Evaluation of the Federal Information Security Management Act at CFTC

       The Federal Information Security Management Act (FISMA) was enacted on December
17, 2002. FISMA requires the Office of the Inspector General to perform annual independent
evaluations of the information security program and practices of the agency.




2 The IG Act and the Federal Financial Management Improvement Act of 1996 (FFMIA) require the Inspectors

General of certain agencies to report "instances and reasons" when the Agency has not met intermediate target dates
established in a remediation plan to bring the Agency's financial management system into substantial compliance
with the FFMIA. CFTC is not subject to the FFMIA; however, it voluntarily seeks to comply with its
requirements. During this reporting period, there were no events giving rise to a duty to report under FFMIA.


                                                         6
Status.

       The OIG is currently completing its evaluation of the agency's FISMA related documents
and will submit its assessment along with the agency's documents to the Office of Management
and Budget by November 2010.

c. Review of CFTC's Documentation of Market Surveillance Communications

Scope and Objective

        We intend to conduct an independent review of market surveillance operations at CFTC,
specifically informal communications between agency staff and traders with large open positions
approaching expiration. This review is motivated by concerns voiced by agency staff as well as
the United States Government Accountability Office (GAO).



        Due to staffing resource issues and other issues commanding the attention of the OIG,
this review has been tabled for the time being.



     AUDIT REPORTS and REVIEWS OVER SIX MONTHS OLD

1.        Corrective Action not Completed

       There were no instances of audit reports over six months old where corrective action had
not been completed.


2.        Corrective Action Completed

        There were no instances of reports issued before the commencement of the reporting
period for which corrective action had been completed by the end of the reporting period.


3.        Management Decision not Made

        There were no instances of a report issued before the commencement of the reporting
period for which a management decision had not been made by the end of the reporting period.
In 2006, the CFTC OIG issued a report titled "Review of the Need for a Western Regional Office
in Los Angeles." That report recommended, among other things, that the Commission review
the feasibility of reestablishing the former Los Angeles field office. That recommendation was
not carried out largely due to budget constraints. In January 2008, partially in response to a
Congressional inquiry, CFTC OIG updated its analysis and on March 12, 2008, issued a follow-
up report which reiterated the earlier recommendation. In January 2009, the Acting Chairman

                                               7
issued a decision declining to implement the recommendation generally due to cost
considerations, but required the Agency on a yearly basis to provide to OIG an analysis of
regional case filing statistics and costs associated with cases in various regions of the country.
The Division of Enforcement submitted their yearly analysis to OIG in March 2010. In light of
increased funding for FY09, FYlO and FY 11 (anticipated), corresponding anticipated staffing
increases and the enactment of legislation that expands CFTC jurisdiction, we renew the
recommendation that the Commission consider opening additional CFTC offices on the West
Coast and possibly other locations as well.

                                   INVESTIGATIONS


        The Inspector General Act of 1978, as amended, provides that the Inspector General may
receive and investigate complaints or information from the Commission's employees and other
sources concerning the possible existence of an activity constituting a violation of law, rules or
regulations, or mismanagement, abuse of authority, or gross waste of funds, or a substantial and
specific danger to the public health and safety.

        No investigations were pending as of the beginning of the reporting period. No
investigations were opened during this period. One preliminary inquiry was closed without
formal investigation due to the failure of the submitter to provide any evidence of violative
activity during the applicable statute of limitations. The allegation involved possible criminal
activity in violation of 18 USC 207(a)(I), which criminalizes certain post-employment activities.
The allegations did not involve any activity that took place within the applicable statute of
limitations; consequently this preliminary inquiry was closed without investigation. An
allegation of possible misconduct in connection with the disposal of surplus IT equipment
received during the most recent reporting period was addressed through an inspection of the
agency's disposal of all IT equipment in FY 2009 (see page 3).



                SUMMARY OF MATTERS REFERRED TO
                   PROSECUTORIAL AUTHORITIES

        No matters were referred to prosecutorial authorities during the reporting period.
Allegations concerning possible misconduct relating to an earlier procurement to obtain an
external auditor (that CFTC OIG referred to the Council of Inspectors General on Integrity and
Efficiency Integrity Committee in March 2009) were resolved with a finding of no misconduct
by the CFTC OIG.




                                                 8
                         CONGRESSIONAL INQUIRIES

        The Inspector General continues to be involved in legislative activities pertaining to both
the CFTC and the IG community. The IG serves on the legislation committee for the Council of
Inspectors General on Integrity and Efficiency, which discusses and provides guidance on
pending legislation affecting the IG community. During this reporting period, the OIG
communicated with Congressional staff as necessary to address issues regarding proposed
legislation.



       LEGISLATIVE, REGULATORY AND RULE REVIEWS

1.     Introduction and Summary

        As specified in Section 4(a)(2) of the Inspector General Act of 1978, OIG reviews the
impact of existing and proposed legislation and regulations on CFTC programs and operations
and makes recommendations regarding more effective or efficient alternatives or protections
against fraud and abuse. OIG also reviews exchange rule proposals circulated to senior staff at
CFTC.

        OIG notifies the responsible Divisions as to any concerns with draft and final documents
relating to legislation, rules (including exchange rules) or investigations. Initial discussions are
usually informal. The OIG actively monitors the proposed rules and regulations under
development as a result of Dodd-Frank Act. Formal comments were not submitted to the
Commission during this reporting period.


2.     Rule Reviews Initiated in Previous Reporting Periods

        There were no rule reviews initiated in previous reporting periods which were continued
into this reporting period.


3.     Rule Reviews Initiated this Reporting Period

       No rule reviews were initiated during this reporting period.




                                                 9
4.         Legislative Activities

       OIG tracked legislation impacting programs and operations of the CFTC and of the
Office of Inspector General, and made contact with Congressional staff concerning various
agency and IG issues as appropriate. The IG served on the legislation committee for the Council
of Inspectors General on Integrity and Efficiency, which comments on proposed amendments to
the IG Act and other legislation affecting the IG community.



                                          OTHER REVIEWS

1.         Peer Reviews

        An important function in each Agency DIG is the peer review process. The Inspector .
General community's annual report, A Progress Report to the President, Fiscal Year 2007,3
described the processes for audits and investigative peer reviews as follows:

           Government Auditing Standards require that audit organizations conducting audits
           of Federal agencies undergo peer reviews every 3 years. The IG community has
           implemented a process to meet this requirement. The purpose of the peer review
           is to determine whether the reviewed audit organization's internal quality control
           systems are adequate and provide reasonable assurance that applicable auditing
           standards, policies and procedures are met.

           Similarly, investigative peer reviews are conducted to ensure compliance with the
           requirements of the Quality Standards for Investigations and determine whether
           adequate internal safeguards and management procedures exist to ensure that law
           enforcement powers are properly exercised. 4

        During this reporting period, DIG began a peer review of the audit function at the Farm
Credit Administration Office of Inspector General (FCA DIG). In addition, OIG submitted to a
peer review of its own audit function by the Federal Election Commission Office of Inspector
General (FEC OIG). Both our peer review of FCA DIG and the peer review of CFTC OIG by
FEC OIG were ongoing at the end of this reporting period.


2.         Other Reviews and Activities

           No other review activity took place during this reporting period.




3   http://www.ignet.gov/randp/fy07apr.pdf.
4   Id. at p.19.

                                                   10
            SUMMARY OF EACH REPORT MADE TO
       THE AGENCY HEAD CONCERNING REQUESTS FOR
               INFORMATION OR ASSISTANCE
        No reports were made to the Agency head under section 6(b)(2) concerning information
or assistance unreasonably refused or not provided (mandated under section 5(a)(5) of the Act).



                  REVISED MANAGEMENT DECISIONS
       No management decisions were revised during the reporting period.



                INSPECTOR GENERAL DISAGREEMENT
      The Inspector General did not disagree with any management decisions on OIG
recommendations during the reporting period.



                                     GAO LIAISON
        OIG is charged with providing policy direction for, and conducting, supervising, and
coordinating audits and investigations relating to CFTC programs and operations. In addition,
OIG is required to recommend policies for, and conduct, supervise, and coordinate with other
Federal agencies, state and local governmental agencies, and nongovernmental entities, audits,
investigations, reviews and evaluations regarding the economy, efficiency, and effectiveness of
CFTC programs and operations.

       GAO also conducts audits of CFTC activities, and OIG plans its audits so as not to
duplicate GAO's efforts. Moreover, OIG in its audit, review and inspection activities identifies
the goals of each endeavor and the methods of reaching the goals so as to minimize the
requirements placed on CFTC resources.



                     STRATEGIC PLAN FOR THE
                 OFFICE OF THE INSPECTOR GENERAL
1.     Investigative Agenda

       The Inspector General Act of 1978, as amended, provides that the Inspector General may
receive and investigate complaints or information from the Commission's employees concerning
the possible existence of an activity constituting a violation of law, rules or regulations, or

                                                11
mismanagement, gross waste of funds, abuse of authority or a substantial and specific danger to
the public health and safety.

        OIG has to date conducted only a reactive investigative program chiefly relying on
unsolicited employee complaints as the source of investigative leads. However, allegations and
complaints are also received from the general public and Congress. This reactive program has
resulted in only a handful of investigations per year. This strategy was followed because OIG
believed that an independent regulatory agency such as the CFTC, without grant money or
substantial contracts to award, was not likely to generate a substantial investigative workload.

        To insure that employee complaints could easily reach OIG, a 24-hour hotline was
established in February 1993 to receive complaints. The hotline phone number is (202)418-
5510.

        Because of the necessarily reactive nature ofOIG's investigative program, no
investigative agenda has been established.


2.     Legislative and Regulatory Review Agenda

        In accordance with the IG Act, OIG generally reviews existing and proposed legislation
and regulations relating to programs and operations of the Agency. The OIG evaluates the
impact of such legislation or regulations on the economy and efficiency in the administration of
programs and operations administered or financed by the Agency or the prevention and detection
of fraud and abuse in such programs and operations. OIG makes recommendations in the
semiannual reports as necessary.

        Because of the importance of this activity in a financial and economic regulatory agency,
OIG may review selected proposed and final CFTC regulations and selected exchange rules
using six basic criteria: Whether the agency: (1) has identified specifically the problem(s) to be
addressed by the proposal; (2) has defined through case study or data analysis a clear link
between the proposed solution and the identified problem(s); (3) has specified clearly the means
to effectively and efficiently enforce the proposal; (4) has assessed the likely efficiency and
effectiveness of alternative solutions; (5) can reasonably document that the proposal will yield
positive net benefits over the long term; and (6) has adequately addressed the requirements of the
Regulatory Flexibility Act and the Paperwork Reduction Act.

        The Regulatory Flexibility Act requires the agency to evaluate the impact of its
regulations on small entities. The Paperwork Reduction Act requires the agency to manage
effectively and efficiently its information collections so that they are the least burdensome
necessary to achieve the stipulated objectives.

        Because OIG does not initiate legislation or, generally, regulations, the OIG legislative
and regulatory review program is reactive to the legislative and regulatory proposals developed
by others. Accordingly, no independent legislative and regulatory review agenda has been
established. OIG is aware of the immense regulatory undertaking required under the Dodd-Frank


                                                12
Act, and during this reporting period reviewed the new legislation as well as regulatory efforts
taken thus far by agency staff, and established contact with other affected Offices of Inspector
General as appropriate, including activities related to the creation of the Council of Inspectors
General on Financial Oversight.


3.     Audit, Inspection, Evaluation and Review Agenda

a. Introduction

       The primary objectives of the OIG audit, inspection, evaluation and review agenda is to
promote long-term efficiency and effectiveness in the administration and operation of the
Commission and to protect against fraud and abuse. The audit, review and inspection agenda
and priorities for OIG are determined based on the following factors:

       •   Adequacy of internal control systems as indicated by vulnerability assessments and
           internal control reviews recommended by OMB Circular A-123;

       •   Changes in the program conditions or particular vulnerability of the organization,
           program, activity, or function to problems or deficiencies;

       •   Current and potential dollar magnitude and likely benefits of a review on the
           efficiency or effectiveness of CFTC programs and operations;

       •   Management priorities and improvements that may be possible;

       •   Results of audits of CFTC programs and operations by other Federal agencies; and

       •   Availability of audit resources and the potential opportunity costs to the agency.


b. Annual Audit

       The following required audit is performed on an annual basis.

Audit of CFTC Financial Statements

        In FY 2002, Congress passed the Accountability of Tax Dollars Act. The Act requires
the CFTC, along with numerous other Federal entities, to have its financial statements audited
annually. To this end, OIG has engaged a contractor to provide the audit effort required to
enable the contractor to render an opinion on the agency's financial statements for each fiscal
year in accordance with generally accepted auditing standards, Government Auditing Standards
and OMB Bulletin 07-04.




                                                 13
c. Annual Review and Evaluation

       The following review and evaluation are performed on an annual basis.

Review of Compliance with the Federal Managers' Financial Integrity Act, FMFIA

       In support of OMB Circular A-123 (Revised), the Inspector General will evaluate,
provide technical assistance and advise the agency head as to whether the agency's review and
evaluation process was conducted in accordance with the circular's requirements.

Evaluation of the CFTC Information Security Management Act. FISMA

        The Federal Information Security Management Act requires the Inspector General or his
designee to perform annual independent evaluations of the information security program and
practices of the agency.


d. Other Audits, Inspections, Evaluations, Reviews and Projects

        Looking to the long term, the OIG intends to focus the balance of its audit resources on
the review of the management and operation of the agency and compliance with Congressional
mandates. OIG intends to focus its efforts with a view to auditing or reviewing activities relating
to the most serious management challenges facing the CFTC.

       OIG issues an assessment of the most serious management challenges each year for
publication in the CFTC Performance and Accountability Report. In the past four years, OIG
has identified as management challenges the following areas of concern:

   •   Efficient Acquisition and Integration of Skilled Human Capital
   •   Modernization of Electronic Market Surveillance
   •   Expansion ofCFTC Oversight into New Markets
   •   Industry Consolidations
   •   Exchange Trading Revolutions (Growth ofDerivative Trading)
   •   Efficient Acquisition and Integration of Skilled Human Capital

In addition, OIG is aware of the immense regulatory undertaking required under the Dodd-Frank
Act. OIG will seek to identify issues and to conduct audits and reviews relating to these
management and regulatory challenges. Finally, OIG will stand ready to respond to issues and
requests as they are received from Congress, the Agency and members of the public or any other
source.

At the close of the last reporting period, OIG had begun initial planning for a review intended to
examine communications between CFTC staff and large traders. Due to our workload during
this reporting period, this review has been tabled for the time being.




                                                14
e. Resources Required

        DIG estimates that approximately one-half staff year of effort will be devoted over each
of the next five years to the "Annual Audits" described above. All other audits, inspections,
evaluations, review and other projects will consume up to two and a half staff years. Because
DIG resources can be diverted at any time to an investigation or audit, inspection, evaluation,
review or project that responds to current concerns or allegations, and must be completed in a
timely fashion in order to be of assistance to the Agency or Congress, it is impossible to forecast
with complete accuracy how resources will be utilized from year to year.



                        CONTACTING THE OFFICE OF THE
                            INSPECTOR GENERAL

        DIG is located at 1155 21st Street, N.W., Washington, D.C. 20581. The telephone
number is (202)418-5110. The facsimile number is (202)418-5522. The hotline number is
(202)418-5510. The DIG web page is located at:
http://www.cftc.gov/About/DfficeoftheInspectorGeneral/index.htm.

       Regular business hours are between 8:30 AM and 5:00 PM, Monday through Friday,
except Federal holidays.




                                                 15
                                              Table 1
                                Reports Issued with Questioned Costs
                                (April 1, 2010 - September 30,2010)

                                                                       Dollar Value
                                                                        Thousands
                                                    Number      Questioned Unsupported

A.   For which no management decision has
     been made by the commencement of the
     reporting period                                   o              o        o
B.   Which were issued during the reporting
     period                                             o              o        o
     Subtotals (A + B)                                  o              o        o
c.   For which a management decision was
     made during the reporting period                   o              o        o
     (I)     dollar value of
             disallowed costs                           o              o        o
     (ii)     dollar value of costs not
              disallowed                                o              o        o
D.   For which no management decision
     has been made by the end of the
     reporting period                                   o              o        o




                                              16
                                              Table 2
                             Reports Issued with Recommendations
                                That Funds be Put to Better Use
                              (April 1, 2010 - September 30,2010)


                                                             Dollar Value
                                                   Number     Thousands

A.   For which no management decision has
     been made by the commencement of the
     reporting period                                o              o
B.   Which were issued during the reporting
     period                                          o              o
     Subtotals (A + B)                               o              o
C.   For which a management decision was
     made during the reporting period                o              o
     (i)      dollar value of
              recommendations that
              were agreed to by management
                                                     o              o
     (ii)     dollar value of
              recommendations that
              were not agreed to by
              management                             o              o
D.   For which no management decision
     has been made by the end of the
     reporting period                                o              o




                                              17
         THE INSPECTOR GENERAL
         NEEDS YOUR HELP TO
         ASSURE THE INTEGRITY OF
         CFTC’S PROGRAMS




Report FRAUD, WASTE
Or ABUSE to the
INSPECTOR GENERAL
ANONYMOUSLY


HOTLINE
(202) 418-5510

Office of the Inspector General
Commodity Futures Trading Commission
1155 21ST Street, N.W.
Washington, D.C. 20581
